Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253
STATE OF NEW YORK

)

COUNTY OF NEW YORK

) SS

Dave Jackson, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18
years of age.
That on 8/20/2020 deponent caused to be served 3 copy(s) of the within
Brief of Amici Curiae Famly Equality and PFLAG National in Support of Respondents
upon the attorneys at the address below, and by the following method:
By Overnight Delivery

By Overnight Delivery

By Overnight Delivery

Mark Leonard Rienzi
Counsel of Record
The Becket Fund for
Religious Liberty
Attorneys for Petitioners
1200 New Hampshire Ave., NW,
Suite 700
Washington, DC 20036
(202) 955-0095
mrienzi@becketlaw.org

Leslie Cooper
Counsel of Record
Counsel for Respondent Intervenor
Support Center for Child
Advocates and Philadelphia Family
Pride
125 Broad Street
New York, NY 10004
212-519-7815
lcooper@aclu.org

Solicitor General
United States Department of
Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

By Overnight Delivery

By Overnight Delivery

Neal Kumar Katyal
Counsel for Respondents
Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
202 637 5528
neal.katyal@hoganlovells.com

Deepak Gupta
Counsel for Respondents
Gupta Wessler PLLC
1900 L Street, NW
Suite 312
Washington, DC 20036
(202) 888-1741
deepak@guptawessler.com

Sworn to me this

Case Name: Sharonell Fulton v. City of Philadelphia (2)

Thursday, August 20, 2020
Antoine Victoria Robertson Coston
Notary Public, State of New York
No.01RO6286515
Qualified in Nassau County
Commission Expires on 7/29/2021

Docket/Case No: 19-123
Index:

